      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




June 23, 2010

TO:             Yvette Sanchez Fuentes
                Director, Office of Head Start
                Administration for Children and Families


FROM:           /George M. Reeb/
                Acting Deputy Inspector General for Audit Services


SUBJECT:        Review of Community Development Institute Head Start, North Metro DC,
                Compliance With Health and Safety Regulations for Head Start Programs
                (A-03-09-00361)


Attached, for your information, is an advance copy of our final report on Community
Development Institute Head Start, North Metro DC’s, compliance with health and safety
regulations for Head Start programs. We will issue this report to Community Development
Institute within 5 business days. The Administration for Children and Families, Office of Head
Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at (215) 861-4470 or
through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number A-03-09-00361.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499
June 25, 2010

Report Number: A-03-09-00361

Ms. Leann Earl
Project Director, National Interim Management Contract
Community Development Institute
10065 East Harvard Avenue, Suite 700
Denver, CO 80231

Dear Ms. Earl:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Community Development Institute Head Start,
North Metro DC, Compliance With Health and Safety Regulations for Head Start Programs. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Leonard Piccari, Audit Manager, at (215) 861-4693 or through email at
Leonard.Piccari@oig.hhs.gov. Please refer to report number A-03-09-00361 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Leann Earl


Direct Reply to HHS Action Official:

Mr. David Lett
Regional Administrator
Administration for Children and Families, Region III
U.S. Department of Health & Human Services
Public Ledger Building, Suite 864
150 South Independence Mall West
Philadelphia, PA 19106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF COMMUNITY
DEVELOPMENT INSTITUTE HEAD
  START, NORTH METRO DC,
COMPLIANCE WITH HEALTH AND
  SAFETY REGULATIONS FOR
   HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-03-09-00361
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Community Development Institute Head Start, North Metro DC (the Grantee), provides a
comprehensive child development program for eligible expectant families, children from birth to
5 years of age, and their families. The Grantee provides services to children at two facilities in
the District of Columbia. For program year 2008–2009 (October 1, 2008, through September 30,
2009), OHS awarded approximately $1.15 million in Federal Head Start funds to the Grantee to
provide services to 158 children.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of June 2009:

   •   The files on all 19 of the Grantee’s Head Start employees lacked (1) evidence of checks
       of the child protection register, (2) evidence of completed background checks, or
       (3) employee-signed declarations listing any relevant criminal convictions.

   •   The Grantee’s two childcare facilities did not meet all Federal Head Start and State
       requirements on protecting children from unsafe materials and equipment.

   •   One of the Grantee’s childcare facilities did not provide a secure environment for the
       children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to comply with these requirements
jeopardized the health and safety of children in its care.




                                                  i
RECOMMENDATIONS

We recommend that the Grantee develop and consistently implement procedures to ensure that:

   •   all employee files contain (1) evidence of checks of the child protection register,
       (2) evidence of completed background checks, and (3) employee-signed declarations
       listing any relevant criminal convictions;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children
       and other unsafe conditions are addressed; and

   •   all facilities are secure.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee concurred with our recommendations and
described its actions to address the deficiencies that we identified. The Grantee’s comments are
included as Appendix C. We have excluded the attachments accompanying the Grantee’s
comments because of their volume.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Head Start Program ...........................................................................1
              Federal Regulations for Head Start Grantees.................................................1
              Community Development Institute ................................................................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          EMPLOYEE DECLARATIONS AND BACKGROUND CHECKS .......................3
              Federal and State Requirements.....................................................................3
              Grantee’s Compliance With Federal and State Preemployment
                Requirements ..............................................................................................4

          MATERIAL AND EQUIPMENT SAFETY .............................................................4
              Federal and State Requirements.....................................................................4
              Grantee’s Compliance With Material and Equipment Safety
                Requirements ..............................................................................................5

          FACILITY SECURITY .............................................................................................6
               Federal and State Requirements.....................................................................6
               Grantee’s Compliance With Facility Security Requirements ........................6

          INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES ..............6

          RECOMMENDATIONS ..........................................................................................7

          GRANTEE COMMENTS ........................................................................................7

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              REGULATIONS

          B: LACK OF COMPLIANCE WITH FACILITY SECURITY REGULATIONS

          C: GRANTEE COMMENTS

                                                                    iii
                                        INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal Regulations for Head Start Grantees

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
regulations also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing regulations. Alternatively, if
State and local licensing standards are less stringent than the Head Start regulations or if no State
licensing standards are applicable, grantees must ensure that their facilities comply with the Head
Start Program Performance Standards related to health and safety (45 CFR § 1306.30(c)).

Community Development Institute

Community Development Institute Head Start, North Metro DC (the Grantee), provides a
comprehensive child development program for eligible expectant families, children from birth to
5 years of age, and their families. Community Development Institute Head Start has been OHS’s
National Interim Management Contractor (NIC) for the Head Start program since September 29,
2000. As the NIC, Community Development Institute Head Start has operated 121 programs in
38 States to ensure continuity of services during the competitive selection of new Head Start
grantees.

At the request of OHS, the Grantee is operating the Head Start program previously operated by
Nation’s Capital Child and Family Development of Washington, DC until a replacement grantee
is secured. Since January 6, 2007, the Grantee has provided services to children at two licensed



                                                 1
facilities, the Dance Institute of Washington and the Azeeze Bates Center, both located in the
District of Columbia. For program year 2008–2009 (October 1, 2008, through September 30,
2009), OHS awarded approximately $1.15 million in Federal Head Start funds to the Grantee to
provide services to 158 children at the 2 facilities.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements on ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and facilities as of June 2009. To gain an
understanding of the Grantee’s operations, we conducted a limited review of the Grantee’s
internal controls as they related to our audit objective.

We performed our fieldwork from June 1 through June 5, 2009, at the Grantee’s administrative
office and at its two childcare facilities in the District of Columbia.

Methodology

To accomplish our objective, we:

       •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

       •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
           and the Head Start program;

       •   reviewed the Grantee’s Head Start grant applications and current grant award documents;

       •   reviewed the Grantee’s files on all 19 current Head Start employees associated with the 2
           facilities; 1

       •   reviewed the Grantee’s licenses and documentation of fire inspections;



1
    The 19 current employees were partially or fully funded by the Head Start grant award.



                                                           2
   •       visited the Grantee’s 2 childcare facilities; and

   •       discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The Grantee did not fully comply with Federal and State requirements on ensuring the health and
safety of children in its care. Specifically, as of June 2009:

   •       The files on all 19 of the Grantee’s Head Start employees lacked (1) evidence of checks
           of the child protection register, (2) evidence of completed background checks, or
           (3) employee-signed declarations listing any relevant criminal convictions.

   •       The Grantee’s two childcare facilities did not meet all Federal Head Start and State
           requirements on protecting children from unsafe materials and equipment.

   •       One of the Grantee’s childcare facilities did not provide a secure environment for the
           children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to comply with these requirements
jeopardized the health and safety of children in its care.

EMPLOYEE DECLARATIONS AND BACKGROUND CHECKS

Federal and State Requirements

Federal Head Start regulations (45 CFR § 1301.31(b)(2)) state that grantees must require each
current and prospective employee to sign a declaration that lists:

       •    all pending and prior criminal arrests and charges related to child sexual abuse and their
            disposition,

       •    convictions related to other forms of child abuse and neglect, and

       •    all convictions for violent crimes.

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843A(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,


                                                     3
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

In the District of Columbia, child development facilities must comply with the “Criminal and
Background History Checks” requirements of the District of Columbia Municipal Regulations
(29 DCMR § 328). Section 328.1 states that each employee must satisfactorily complete a
criminal background check as required by the District of Columbia’s Child and Youth, Safety
and Health Omnibus Amendment Act of 2004 (the Act). Section 328.1(a) also requires each
employee to satisfactorily complete a child protection register check before he or she may be
unconditionally employed. Section 4-1501.05(b)(1) of the Act states that “[a]n applicant,
employee, or volunteer required to apply for a criminal background check under § 4-1501.03
shall submit to a criminal background check by means of fingerprint and National Criminal
Information Center checks conducted by the Mayor and the FBI.”

Grantee’s Compliance With Federal and State Preemployment Requirements

The Grantee’s files on all 19 current employees 2 lacked evidence of compliance with 1 or more
Federal or State preemployment requirements. Specifically:

    •   The files on 17 employees contained no evidence of a completed child protection register
        check.

    •   The files on six employees contained no evidence of a completed National Criminal
        Information Center background check, as required by District law.

    •   The file on one employee did not contain an employee-signed declaration listing all
        pending and prior criminal arrests and charges related to child sexual abuse, convictions
        related to other forms of child abuse and neglect, and convictions for violent crimes.

By not ensuring that all employees who supervised or had routine unsupervised contact with
children met all preemployment requirements, the Grantee potentially jeopardized the safety of
children in its care.

MATERIAL AND EQUIPMENT SAFETY

Federal and State Requirements

Pursuant to Federal Head Start regulations (45 CFR § 1304.53(a)(7)), grantees must provide for
the maintenance, repair, and safety of all Head Start facilities, materials, and equipment. The
regulations (45 CFR § 1304.53(a)(10)(iii)) require grantees to ensure that dangerous materials
and potential poisons are stored in locked cabinets or storage facilities separate from stored
medications and food and are accessible only to authorized persons. All medications, including
2
 The 19 employees included teachers, teacher assistants, family service workers, program aides, a family
community partnership manager, a center director, a program director, and a fiscal specialist.


                                                        4
those required for staff and volunteers, must be labeled, stored under lock and key, refrigerated if
necessary, and kept out of the reach of children.

Regulations (45 CFR § 1304.53(a)(10)(v)) require grantees to ensure that approved, working fire
extinguishers are readily available. In addition, 45 CFR § 1304.53(a)(10)(vi) states that grantees
must ensure that an appropriate number of smoke detectors are installed and tested regularly.
Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities comply
with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

State regulations (29 DCMR §§ 363 and 369) require, among other things, that:

   •   unused electrical outlets that are within the reach of children be fitted with appropriate
       child-proof protective closures;

   •   cleaning and sanitizing supplies, toxic substances, paints, poisons, aerosol containers, and
       other items bearing warning labels be safely stored and kept inaccessible to children; and

   •   first aid supplies be readily available to staff and inaccessible to children.

State regulations (29 DCMR § 305) also require that each child development center undergo an
annual fire safety inspection and obtain certification that the premises conform to all applicable
fire safety and related codes. The certification must be issued by the Department of Fire and
Emergency Medical Services or the Department of Consumer and Regulatory Affairs upon each
annual application for license renewal.

Grantee’s Compliance With Material and Equipment Safety Requirements

The Grantee’s childcare facilities did not meet all Federal Head Start and State health and safety
requirements on protecting children from unsafe materials and equipment. Our visits to the
Dance Institute of Washington on June 1 and 2 and to the Azeeze Bates Center on June 2 and 3
found the following deficiencies, which we immediately reported to the facility managers on
duty and received assurance that the facilities would correct:

   •   At the Dance Institute of Washington, fire extinguishers were stored within reach of
       children (Appendix A, Photograph 1).

   •   At both facilities, first aid kits were easily accessible to children (Appendix A,
       Photograph 1).

   •   The Dance Institute of Washington provided no evidence that smoke detectors were
       tested on a regular basis.




                                                  5
   •   At both facilities, a total of seven electrical outlets accessible to children lacked
       protective closures (Appendix A, Photograph 2).

   •   At the Dance Institute of Washington, chemicals and cleaning supplies were stored in
       unlocked cabinets or closets within children’s reach (Appendix A, Photograph 3).

   •   At the Azeeze Bates Center, a fire inspection approval certification dated May 1, 2008,
       had expired.

By not ensuring that all facilities were kept free from unsafe materials and equipment, the
Grantee jeopardized the safety of children in its care.

FACILITY SECURITY

Federal and State Requirements

Pursuant to 45 CFR § 1304.53(a)(7), grantees must provide for the security of all Head Start
facilities. Pursuant to 45 CFR § 1306.30(c), grantees also must ensure that Head Start facilities
comply with any State and local licensing requirements. If these licensing standards are less
comprehensive or less stringent than Head Start regulations or if no State or local licensing
standards are applicable, grantees must ensure that their facilities comply with the Head Start
Program Performance Standards related to health and safety.

State regulations (29 DCMR § 342) require that an outdoor play area be in an enclosed yard on
the facility premises, in a nearby park or playground, or in a rooftop play space that meets State
safety standards. The facility must maintain the outdoor play space so that it is free from
conditions that are, or might be, hazardous to the health and safety of children.

Grantee’s Compliance With Facility Security Requirements

The outdoor play area at the Azeeze Bates Center was not enclosed by a fence or natural barrier
that would prevent children from leaving the premises and entering unsafe and unsupervised
areas. The play area was open to the parking area in front of an apartment complex and therefore
accessible to strangers (Appendix B, Photograph 1). We reported this issue to the facility
manager, who replied that the facility would use another play area, a public school playground
located a few blocks from the building, instead.

By not ensuring that the outdoor play area was secure, the Grantee jeopardized the safety of
children in its care.

INADEQUATE OR INCONSISTENTLY FOLLOWED PROCEDURES

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow procedures that were in place to ensure that it complied with Federal and
State health and safety requirements.




                                                  6
RECOMMENDATIONS

We recommend that the Grantee develop and consistently implement procedures to ensure that:

   •   all employee files contain (1) evidence of checks of the child protection register,
       (2) evidence of completed background checks, and (3) employee-signed declarations
       listing any relevant criminal convictions;

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children
       and other unsafe conditions are addressed; and

   •   all facilities are secure.

GRANTEE COMMENTS

In its comments on our draft report, the Grantee concurred with our recommendations and
described its actions to address the deficiencies that we identified. The Grantee’s comments are
included as Appendix C. We have excluded the attachments accompanying the Grantee’s
comments because of their volume.




                                                7
APPENDIXES
                                                                                      Page 1 of 2



            APPENDIX A: LACK OF COMPLIANCE WITH
         MATERIAL AND EQUIPMENT SAFETY REGULATIONS




Photograph 1 – Taken at the Dance Institute of Washington on 6/1/2009 showing a first aid
kit and a fire extinguisher within reach of children.




  Photograph 2 – Taken at the Azeeze Bates Center on 6/2/2009 showing an uncovered
  electrical outlet in the children’s play area.
                                                                                  Page 2 of 2




Photograph 3 – Taken at the Dance Institute of Washington on 6/1/2009 showing a
container of bleach in an unlocked room.
               APPENDIX B: LACK OF COMPLIANCE WITH
                  FACILITY SECURITY REGULATIONS




Photograph 1 – Taken at the Azeeze Bates Center on 6/3/2009 showing the onsite play area with
no fence or natural barrier preventing access to a parking area.
                                                                                                                  Page 10f3


                          APPENDIX C: GRANTEE COMMENTS 




                                      Community Development Institute 

                                               Head Start 

                                         National Interim Management Contract 

                                          10065 E. Harvard Avenue, Suite 700 

                                                   Denver, CO 80231 

                                          (877) 789-4900 * Fax (720) 747-5148 



May 12, 2010

Deborah Walsh
Office of Audit Services
Office of Inspector General
U.S. Department of Health and Human Services

Thank you for the opportunity to respond to the findings of your June 2009 on site inspection of our 

Community Development Institute Head Start Serving North Metro DC program. The North Metro DC 

Head Start program provides a comprehensive child development program for eligible families, 

children from 3-5 years of age. These services are provided at two facilities; Azeeze-Bates, located at 

444 16th St. NE and 3400-A 14th St. NW. 

This report will respond to the Summary of Findings listed below: 

    1. 	 The files on all 19 of the Grantee's Head Start employees lacked (1) evidence of checks of the child
         protection register, (2) evidence of completed background checks, or (3) employee-signed declarations
         listing any relevant criminal convictions.
    2. 	 The Grantee's two childcare facilities did not meet all Federal Head Start and State requirements on
         protecting children from unsafe materials and equipment.
    3. 	 One of the Grantee's childcare facilities did not provide a secure environment for the children in its
        care.

This report will also demonstrate compliance with all recommendations of the US Department of
Health and Human Services, Office of the Inspector General.
    1. 	 All employee files contain (1) evidence of checks of the child protective register, (2) evidence of
        completed background checks, and (3) employee-signed declarations listing any relevant criminal
         convictions
    2. 	 All unsafe materials and equipment are stored in locked areas out of the reach of children and other
         unsafe conditions are addressed; and
    3. 	 All facilities are secure.

RESPONSE TO FINDINGS and RECOMMENDATIONS: 

EMPLOYEE DECLARATIONS AND BACKGROUND CHECKS 

Finding (1) 

The files on all 19 of the Grantee's Head Start employees lacked (1) evidence of checks of the child 

protection register, (2) evidence of completed background checks, or (3) employee-signed 

declarations listing any relevant criminal convictions. 

Recommendation (1) 

All employee files contain (1) evidence of checksof the child protective register, (2) evidence of 

completed background checks, and (3) employee-signed declarations listing any relevant criminal 

convictions 

Response (1) 

                                                                                                                  Page 2 of3




CDI HS concurs with this finding and recommendation. The following corrective action was taken
immediately:
    1. 	 The 2007 CDI Employee Handbook, Section D (3),(4) requires each program to conduct criminal records
        checks in accordance with local state law and each employee is required to sign an arrest and
        conviction declaration (Please see attached item #1 and #lA).


    2. 	 CDI HS also has a policy which requires all employees to undergo a criminal record check prior to any
        type of employment (irrespective of whether such employees are considered temporary, on probation
        or other personnel category). These checks must be completed with results obtained and reviewed to
        determine compliance with federal and local state standards prior to the employee's first day of work.
        (Please see attached item #2)


    3. 	 The human resources specialist follows a strict protocol for hiring new persons. Staff use a Personnel
        File Checklist when processing new hires. Following this checklist is another means of ensuring that all
        required paperwork is completed (Please see attached Item #3).


   4. 	 Staff responsible for oversight of this area have been retrained and are closely monitored to ensure
        compliance. Onsite checks have been conducted to ensure compliance and as such our internal audit
        findings are that staff is complying with this standard.



MATERIAL AND EQUIPMENT SAFETY
Finding (2)
The Grantee's two childcare facilities did not meet all Federal Head Start and State requirements on
protecting children from unsafe materials and equipment.
Recommendation (2)
All unsafe materials and equipment are stored in locked areas out of the reach of children and other
unsafe conditions are addressed.
Response (2)
CDI HS concurs with this finding and recommendation. The following corrective action was taken
immediately:
    1. 	 CDI HS Serving North Metro DC revised and redistributed safety policies and retrained staff on the
       proper procedures to ensure safety. The policy which covers classroom/facility safety is attached as
       item #4. Center Directors have been retrained and/or replaced and are continuously monitored by
       management team members. If there are items of concern or issues of non-compliance in any area, it
       is immediately brought to the attention of the Center Director who will take corrective action on the
       spot. If an issue requires a more advanced approach such as repair, then a work order is submitted. The
       damaged or "in need of repair" item is removed from the classroom or blocked from children until said
       repairs can be made.


   2. 	 Fire Extinguishers stored out of reach of children: All classrooms have been checked and fire 

       extinguishers have been secured out of reach of children (see attached photo item #5). 



   3. 	 First aid kits easily accessible to staff but out of reach of children: All classrooms were immediately
       checked and first aid kits were secured out of reach of children (see attached photo item #6).
                                                                                                                     Page 3 of3




    4. 	 Dance Institute of Washington smoke detectors checked on a regular basis: The annual inspection was
                               th
        completed on July 30        •   In addition, the program uses checklists, #567 and #570, that ensure smoke
        detectors are checked. (See attached items #7, 7A and 7B)


    5. 	 Electrical outlets are checked and installed with protective closures:     All unused electrical outlets have
        child resistant plastic protective closures. These protective closures are checked daily at the beginning
        of the day and periodically throughout the day. Each morning one of the teaching staff will conduct a
        health and safety check of their classroom using a Daily Health & Safety Checklist, which is reviewed at
        least weekly by the Center Director (Please see attached item #8). All staff have been retrained on the
        above procedure and are closely monitored .


    6. 	 Dance Institute of Washington chemicals and cleaning supplies are stored in locked cabinets. The
        program staff store all unsafe materials and equipment in locked cabinets or closets that are
        inaccessible to children (please see attached photo item #9). All staff have been retrained on the
        above procedure and are closely monitored.


    7. 	 Azeeze Bates Center - a fire inspection approval certificate is dated 8/13/09. (Please see attached item
        #10)



FACILITY SECURITY
Finding (3)
One of the Grantee's childcare facilities did not provide a secure environment for the children in it's
care.
Recommendation (3)
All facilities are secure.
Response (3)
COl HS concurs with this finding and recommendation. The following corrective action was taken
immediately:
   1. 	 The children of the Azeeze Bates Center utilize the enclosed Minor Elementary School playground
        which is two blocks from the Azeeze-Bates Center.
    2. 	 Additionally CDI Head Start has invested funds in the creation of a totally enclosed play area in the back
        of the Azeeze-Bates Center. We constructed a seven foot concrete and brick wall with a steel door
        (Please see attached photo items 11 & 12). This will decrease the possibility of neighborhood inCidents,
        provide teachers the opportunity to manipulate the environment to meet the ever changing needs of
        the center and further contain activities to the center.


Sincerely,




Leann Earl
Project Director
